                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

Case Number: 107100044                                                                      Page 1 of 1




         The National Science Foundation, DIG opened this investigation based on information that a
         former Universityl employee2 (employee) had misused her University purchase card to make
                                                                                                       4
         personal purchases and charged the costs 3 to a University account and to an NSF award account •

         The University returned the misappropriated funds 5 to NSF. The University referred the matter
         to a State prosecutor's office6 , which accepted the case for criminal prosecution. The employee
         subsequently pled guilty to embezzlement and at sentencing was ordered to pay full restitution?
         to the University and ordered to serve 60 months probation.

         On April 17, 2009, anlnvestigation Report was submitted to NSF recommending debarment of
         the employee for a period ofthree years. s On August 19,2009, NSF sent a Notice of Proposed
         Debarment for a period of three years to the employee. 9 On November 17, 2009, NSF notified
         the former employee that she is debarred from receiving Federal financial and non-financial
         assistance until September 17, 2012. 10

         No further investigative efforts are required in this case.

         Accordingly, this case is closed.




           See Attached Investigation Report.
         9   .
           See Attached Letter, "Notice of Proposed Debarment."
         10 See Attached Letter, "Debannent."




NSF OIG Form 2 (11/02)
CONFIDENTIAL                                                                                      CONFIDENTIAL




       National Science Foundation
        Office of Inspector General




                          Confidential
                  Report of Investigation
                  Case Number 107100044
                     . , 16 April 2009


              ,        .   .        ;   ........,   "     ...'   ..   , .   .   .   '''~',              .   ,-
  This Confidential ReportofInvestigation.is.the property of the NSFOIGand may berusclosed outside'
       NSF only by OIG under the FreedomoHnfot;mation'andPrivaeyActs,5 U.S.c. §§ 552, 552a.
         .'       .            ' . "                '::   '.     x.'                .   "         .         '


                                                                                             NSF OIG Form 22b (11/06)
                                   Executive Summary

Allegation                         University ("University") reported that a former employee,
                    Michelle Llosa, misused her University purchase card by making personal
                    purchases and, subsequently, transferred funds from a University account
                    and an NSF award account to cover the card balances. The employee also
                    created a counterfeit, on-line purchase order directly charging the NSF
                    award account in order to obtain a laptop and related equipment for her
                    personal use.

The Subject         Llosa was an Administrative Assistant III at the University's College of
                    Education from July 11,2005 until July 20,2007.

OIG
Investigation       In October 2007, the University notified NSF OIG that its Office of
                    Internal Audit had completed an investigation into Llosa's questionable
                    purchase card (p-card) use and determined that, from October 2005 to
                    June 2007, Llosa made personal purchases totaling $24,405.96, of which
                    approximately $11,765.78 was ultimately charged to the NSF award,
                    which the University restored.


Prosecution         The University referred the matter to the
                    Prosecutor's Office, who accepted it for prosecution. On October 27,
                    2008, the Subject pled guilty to one criminal count of embezzlement. The
                    Subject was sentenced on November 24, 2008 and ordered to pay full
                    restitution of $32,096.06: $24,405.96 to the University's College of
                    Education and $7,691 to the University's Office of Internal Audit. The
                    Subject was also ordered to serve 60 months (5 years) probation.
OIG
Assessment:         The Subject embezzled funds by illegally charging an NSF award for
                    personal purchases she made with her p-card and by creating a counterfeit
                    purchase order for '!- laptop, which she directly charged to the NSF award.
                    None of the items, which were illicitly purchased, were legitimately
                    related to the NSF award; all were for'her personal use.
OIG
Recommends:         Pursuant to 2 C.F.R § 180 et se,q., and based upon the facts herein, OIG
                    recommends that NSF debar the Subject for 3 years and prohibit the
                    Subject from working with NSF grant funds for 3 years from the final
                    disposition of this case.




                \
I.          OIG INVESTIGATION

            A. Factual Background

In October 2007, ~ University (the University) notified NSF OIG that a fonner
employe/e (the Subject), an Administrative Assistant at the University, had used her University
issued purchase card (p-card) to make illicit purchases. The University's Internal Audit
Department issued a report in August 2007 which ultimately detennined that the Subject had
embezzled funds and improperly used her· p-card. In total, the Subject was responsible for
inappropriate purchases totaling over $24,000, all for her personal uselbenefit? Approximately
$11,765.78 ofthe total amount was fraudulently charged to an NSF award. 3

Through our investigation, we detennined that, in October 2005, the Subject was issued a p-card
in conjunction with her University-related duties. Prior to the activation of her p-card, she
attended the University's required p-card training,4 which covered the topic of prohibited
purchases and explained the documentation standards for all p-card purchases. 5 After the
training, on October 19,2005, the Subject signed the University's "Purchasing Card Agreement"
which states: "The cardholder may not make personal purchases with the Purchasing Card. The
University will seek restitution for any inappropriate charges made to the Card. Fraudulent or
Intentional misuse of the card will result in revocation and/or criminal charges.,,6

Although the Subject was required by University policy to submit p-card statements and
supporting receipts to her immediate supervisor for review each month, the University's
investigation detennined that the Subject did not do SO. 7 In addition, she also failed to retain any
p-card statements, attach detailed itemized receipts to the statements, and review and sign the
statements certifying that purchases were legitimate and not personal. Therefore, for almost 2
years, the Subject was able to embezzle funds and cover up her illicit scheme.




1    Michelle Llosa, Administrative Assistant, _                 University, College of Education.
2    See TAB A, University Report, Exhibits 1,3,4,8 and 9. Some of the vendors Llosa purchased personal items or
     services from included: Target, Macy's, DSW, JCPenny, Wal-Mart, Amoco Oil, Fashion Nails, T-mobile,
     Comcast of Lansing, Best Buy, FedEx, 1800 Flowers, as well as others.
3    TAB D, NSF A ward                                                          See also TAB A, University Report, and
     Exhibit 4, regarding charges transferred to the NSF award.
4    Llosa attended training on October 19,2005. See TAB A, University Report, p.l under section marked
     "Overview", also Exhibit 5-Purchasing Card Agreement signed by Llosa and Exhibit 6-Purchase Card Users
     Manual.
5    Specifically the University requires: 1) detailed receipts be attached for each charge on the monthly statement, 2)
     the cardholder sign the statement to signify that all charges are authorized charges and 3) the statements be
     forwarded to the supervisor/manager for review and approval. See TAB A, University Report, p.1 and Exhibit 6-
     Purchasing Card Users Manual.
6    See TAB A, Exhibit 5-Purchasing Card Agreement.
7    When interviewed by the University, the supervisor indicated that she was not aware she was supposed to review
     and approve the p-card statements on a monthly basis. See TAB A, University Report p.1 under section marked
     "Overview". See also Section III(C), Item 11. "Organizational Action" of this ROI, infra, discussing new
     procedures implemented by the University to address its internal control failures. The University determined, and
     we concur, that the supervisor was not involved in the fraud.
                                                               2
Because the University had notified the local County prosecutor prior to notifying NSF OIG, the
matter was prosecuted at the state level.

        B. OIG Review and Assessment
                                                                                                        I

OIG reviewed the University's Internal Audit Report. Based on the records provided by the
University, we determined that the Subject's first illicit purchase was made on January 24, 2006
- barely 3 months after receiving training and signing the University's "Purchasing Card
Agreement."g From January 24, 2006 through June 23, 2007, the Subject continued to purchase
items totaling over $20,000 and charging them to her University-issued p-card. Furthermore, in
order to hide her scheme, the Subject embezzled funds to pay the bills for her p-card, using
University and NSF funds. 9 In June 2007, the Subject directly charged the NSF award fund in
order to obtain almost $2,000 worth of computer and related equipment. IO Specifically, the
Subject went online, created a counterfeit purchase order (using the NSF award codes) for a
laptop computer and related equipment at the University's computer store, and took possession
of the computer and related equipment.

Once the University determined that NSF funds had been improperly used, it restored the funds,
a total of$11,765.78 (which included indirect costs), to the NSF award account.


II.     PROSECUTION

The Subject plead guilty to one count criminal count of embezzlement, II and on November 24,
2008, she was sentenced to serve 60 months (5 years) probation and ordered to pay full
restitution of $24,405.96 to the University's College of Education and $7,691 to the University's
Office ofInternal Audit. 12          ~                                                           .



III.    DEBARMENT

        A. Grounds for Debarment

NSF may debar a person for "Conviction. : . for ... Commission of embezzlement, theft ... or
... Commission of any other offense indicating a lack of business integrity or business honesty
that seriously and directly affects [the person's] present responsibility .... ,,13 Consequently,
OIG recommends that NSF debar the Subject for a period of 3 years. The Subject pled guilty to



8  A $29.59 charge at a Sunaco gas station. See TAB A, Exhibit 1, p. 4.
9 ·                                                                ~
   P-card statements for 3 months, September 2006 - November 2006, were charged against the NSF Award. See
    TAB A, Exhibit 4.
!O Per receipt for Mac book and related equipment at TAB A, Exhibit 1, p. 9.

11 L10sa was charged with 2 Criminal Counts of Emb~'zzlement. [Count 1: Embezzlement - Agent or Trustee
    $20,000 or More and Count 2: Embezzlement - Agent or Trustee $1,000 or More But Less Than $20,000.] But
    pled guilty to only Count 2. See TAB B, Felony Case Information and Sentencing Document.
12. See TAB B, Felony Case Information and Sentencing Document.

13 2 C.F.R. § lS0.S00(a)(3) & (4).

                                                         3
a felony under state law I4 for "Embezzlement by an agent or trustee of$l,OOO or more but less .
than $20,000," and her conduct clearly indicates a lack of business integrity or business honesty
that seriously and directly affects their individual present responsibility.

            B. Burden of Proof

In debarment actions, the burden of proof lies with NSF to demonstrate by a preponderance of
the evidence that cause for debarment exists. IS "If the proposed debarment is based upon a
conviction or civil judgment, the standard of proof is met.,,16 Since the instant proposed
debarment is based on the Subject's conviction for embezzlement, the burden of proof is met.

            C. Relevant Factors

The debarment regulation lists 19 aggravating and mitigating factors that the debarring official
may consider. I7 The following factors are pertinent to this case:

                                               J
     1. Actual or Potential Harm or Impact I8

The Subject's actions resulted in a financial loss to the University totaling $24,405.96, of which
$11,765.78 was from NSF award funds.· Because she was in a position of trust, the Subject was
given a University p-card and by signing the University'S purchase card agreement, the subject
agreed to abide by the University'S policies and practices. The Subject used her position of trust
to improperly make personal charges to her p-card, then embezzle funds from NSF to hide her
scheme. The Subject's actions caused actual harm to NSF and to the public because she spent
NSF award funds for personal and non-NSF award purposes, rather than for the intended public
purposes.

     2. Frequency or Duration oflncidents I9

The Subject began misusing her p-card in January 2006, approximately 3 months after receiving
it in October 2005, and continued to misuse it until June 2007. We estimate she misused her
card on more than 200 separate occasions, and incurred costs over $24,000. The Subject's



14   See TAB B, Felony Case Infonnation and Sentencing Document, as well as a copy of the _               Penal Code.
     Specifically Llosa plead guilty to:
              being an agent, servant, or employee o f _ University, [did] convert to hislher own
              use, without the consent ofhislher principal, money, or personal property ofhislher principal,
              having a value of$I,OOO or more but less than $20,000, that came into the defendant's
              possession or under the defendant's charge or control by virtue ofhislher relationship with the
              principal; contrary to MCL: 750.174(4) (a) [750. 1744A]
IS   2 C.F.R. § 180.850(a) & -.855.
16    2 C.F.R. § 180.850(b).
17   2 C.F.R. § 180.860.
18   2 C.F.R. § 180.860(a).
19   2 C.F.R. § 180.860(b).
                                                             4
actions extended over a 2-year period2o during which she routinely failed to submit reports and
receipts to her supervisor for review, Furthermore, she did not retain or reconcile monthly p-
card statements or account/fund ledgers on a monthly basis and she removed all p-card
statements and account/fund ledgers from the University to conceal the fraud and used her
position of trust to hide her illicit scheme. 21

 3. Pattern of Wrongdoing22

The Subject began making fraudulent charges within months of receiving her p-card, and
continued to make fraudulent charges over a period- of 2 years. Furthermore, she continually
used her position of trust as a University Administrative Assistant to hide and ultimately pay the
bills for the illicit purchases by transferring a portion of the charges to an NSF award account as
well as to a University account to cover her expenditures. Through her actions she repeatedly
and consistently used her knowledge of University policies and procedures to circumvent the
very safeguards designed to prevent such wrongdoing. She also used her position of trust to
create a false online purchase order, funded by the NSF award, in order to obtain a computer and
related equipment for her personal use.

       · exc IUSIOns
 4. p nor      ·     23


The University has no knowledge and we have not seen any evidence that the Subject has been
previously excluded or disqualified by a federal agency, state or local government.

 5. Role in Wrongdoini 4

For almost 2 years, the Subject planned, initiated, and carried out the wrongdoing. She used her
University p-card to buy over $24,000 worth of items for personal use, in violation of the
University's p-card policy, a policy which she was required to review and sign prior to the
activation of her p-card. In order to hide her scheme and to circumvent University safeguards
designed to prevent misuse of p-cards: the SUb)ect failed to properly submit reports and receipts
and concealed her activity from her supervisor. 5 Furthermore, in order to hide the oyer $24,000,
which she spent on illicit personal purchases, she used her position of trust to distribute the illicit
charges between accounts. Ultimately she charged the University and an NSF award account in
order to pay the p-card bills. 26




20   October 2005 - June 2007. See'TAB A, University Report.
21   See TAB A, University Report.
22   2 C.F.R. § lS0.S60(c).
23    2 C.F.R. § lS0.S60(d).
24    2 C.F.R. § lS0.S60(f).
25   The fact that the supervisor failed to do her duty made Subject's concealment of her illegal activity easy. It does
     not alter Subject's culpability.
26   See TAB A, University Report.
                                                             5
 6. Acceptance of Responsibility27

Although the Subject pled guilty after protracted negotiation with the county prosecutor, she
does not appear to have fully accepted responsibility for her actions. It was only after she was
questioned py the University auditors that she admitted to having misused her p-card. Even
through the Subject told University officials that she wished to reimburse the University for the
illicit expenditures, she never made any attempt to repay any of the funds. Furthermore, when
asked to identify the extent of her wrong doing, the Subject under-reported the amount by 27
percent, identifying only $17,827.16 in inappropriate charges,28 rather than the $24,405.96
identified by the University.

 7.    Repayment 29

As part of her sentence, the court ordered the Subject to make restitution of $32,096.96:
$24,405.96 to the University's, College of Education and $7,691 to University's Office of
Internal Audit. 3o The University restored funds! to the NSF award totaling $11,765.78. 31

 8. Cooperation of the Subject32

The Subject provided only minimal cooperation to the investigation. During the course of her
wrong-doing, the Subject hid her actions by removing all fund ledgers and p-card statements
from the University to conceal her illicit activity. The Subject did not provide these or other
pertinent records to the auditors or assist in the investigation, thus causing the University to
spend an inordinate amount of time, effort, and money to determine the full scope of the
Subject's scheme.

     9. Pervasiveness ofWrongdoing33

In 2 previous NSF OIG cases34 our recommendation to NSF has resulted in debarments of 3
years. We are unaware of any other University case similar in duration or scope. In general, the
University's safeguards were successful in preventing such wrongdoing. It is only through her
position of trust that the Subject was able to circumvent the policies and practices in place.
Nonetheless, the University has initiated further internal contro!s and safeguards in its pur~hase
card program as a result of this matter.




27  2 C.F.R. § 180.860(g).
28 See TAB A, Exhibit 2      Personal and Prohibited Purchases, prepared by Michelle Llosa, and Exhibit 7 Michelle
   Llosa's resignation letter.
29 2 C.F.R. § 180.860(h).

30 See TAB B, Felony Case Information and Sentencing Document.

31 See TAB C, Email notification and attachments regarding charges removed from NSF Award in June 2007.

32 2 C.F.R. § 180.860(i).

33 2 C.F.R. § 180.860(j).

34 NSF OIG Case Numbers

                                                          6
     10. Position Held by Subjects 35

The Subject held a position of trust as an Administrative Assistant and was given a great deal of
control over use of the p-card and data entry of transactions/purchases. She abused her authority
in several ways - one by the illicit use of a University p-card, to facilitate the commission of her
offenses and circumventing safeguards in place.- Another, by creating a counterfeit purchase
order for a laptop, which she retained for her personal use, and fraudulently charging it to the
NSF award account. Furthermore, concealing her fraudulent activities by intentionally removing
all p-card statements and account/fund ledgers.
           \

     11. Organizational Action 36

DIG has determined that the University has taken action to address the concerns raised as a result
of this case.     They have hired an Administrator to review all p-card purchases for
questionable/irregular transactions. The University repaid NSF for all the fraudulent charges on
the NSF award account.


IV.        RECOMMENDATION

Despite the Subject's sentence, she continues to possess the skills to be hired in positions
administering federal awards, and given the amount of restitution she must repay, $32,096.96,
she is likely to seek future employment. In order to further protect the interests of the public and
NSF, we recommend that NSF debar the Subject for 3 years following the disposition of this
case.




35   2 C.F.R. § 180.860(k).
36
     2 C.F.R. § 180.860(1).
                                                 7
                                       Attachments



TAB A: University Report with Attached Exhibits.

               Case Information and Sentencing Document along with a copy of the
                       Penal Code.

TAB C: Email Notice ofImproper Charges removed from NSF Award in June 2007.

                      .
TAB D: Copy of NSF Award                    documents from E-jacket.
                                                            \.




                                            8
                                NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




                                        AUG 1 9 2009

    OFFICE OF THE
   DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED

Michelle Llosa




       Re: Notice of Proposed Debarment


Dear Ms. Llosa:

In light of your misconduct, this letter serves as formal notice that the National Science
Foundation ("NSF") is proposing to debar you from directly or indirectly obtaining the benefits of
Federal grants for three years from the date of your release from prison. During your period of
debarment, you will be precluded fi;om receiving Federal financial and non-financial assistance and
benefits under non-procurement Federal programs and activities. In addition, you will be
prohibited from receiving any Federal contracts or approved subcontracts under theFederal
Acquisition Regulations ("FAR"). Lastly, during your debarment period, you will pe barred from
having supervisory responsibility, primary management, substantive control over,.or critical
influence on, a grant,· contract, or cooperative agreement with any agency of the Executive
Branch ofthe Federal Government.


Reason for Debarment

Your debarment is based upon a referral from NSF's Office ofInspector General ("OIG"). NSF's
record demonstrates that you pleaded guilty to one count of embezzlement for misconduct in
which you engaged as an administrative assistant with                University's (''University'')
College of Education. You were sentenced to sixty months ofprobation. In addition, you were
ordered to pay restitution in the amount of$24,405.96 to the University's College of Education,
and $7,691.00 to the University's Internal Audit Department.
Regulatory Basis for Debarment

Pursuant to 2 CFR 1BO.BOO, debannent may be imposed for:


(a) Conviction of or civil judgment for

***
(3) Commission of embezzlement, theft~ forgery, bribery, falsification or destruction of records,
making false statements, tax evasion, receiving stolen property, making false claims, or
obstruction of justice.


In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 1BO.850. I~ as in this case, the proposed debannent is
based upon a conviction or civil judgment, the standard of proof is met. Id. Therefore, your
conviction for embezzlement supports a cause for debannent under 2 CFR 180.800(a)(3).


Length of Debarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debannent is based. 2 CFR 1BO.B65. Generally, a period of debarment should not
exceed three years but, where circumstances warrant, a longer period may be imposed. Id.
Having considered the seriousness of your actions, as well as the relevant aggravating and
mitigating factors set forth in 2 CFR 1BO.860, we are proposing debarment for a period of three
years.



Procedures Governing Proposed Debarment

The provisions of2 CFR Sections 1BO.800 through'IBO.885 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person, or in writing, or thQugh a representative, infonnation and argument in opposition to this
proposed debannent. 2 CFR 180.815, 180.820. Please note, however, that because your
debarment is based on a conviction, you will not have an opportunity to challenge the facts
underlying the conviction. 2 CFR 180.830(a). Comments submitted within the 30-day period will
receive full consideration and may lead to a revision of the recommended disposition. If NSF
does not receive a response to this notice within the 30-day period, this debarment will become
final.
Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office ofthe General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia, 22230. For your information, we are attaching a copy ofthe Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.




                                                   Sincerely,




                                                   Cora B. Marrett
                                                   Acting Deputy Director



Enclosures:
N onprocurement Debarment Regulations
FAR Regulations


cc:
                               NATIONAL SCIENCE FOUNDATION
                                      4201 Wilson Boulevard,
                                    ARLINGTON, VIRGINIA 22230



                                         NOV 1 7 2009


   OFFICE OF THE
 GENERAL COUNSEL




VIA CERTIFIED MAIL - RETURN RECEIPT REQUESTED

Michelle Llosa




       Re: Debarment

Dear Ms. Llosa:

On September 17, 2009, the National Science Foundation ("NSF") sent you a Notice of Proposed
Debarment in which NSF proposed to debar you from directly or indirectly obtaining the benefits
of Federal grants for three years. The Notice sets forth in detail the circumstances giving rise to
NSF's decision to propose your debarment. Specifically, NSF indicated in the Notice that the
proposed debarment is based upon your conviction for embezzlement. In that Notice, NSF
provided you with thirty days to respond to the proposed debarment.

Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
debarred until September 17,2012. Debarment precludes you from receiving Federal financial
and non-financial assistance and benefits under non-procurement Federal programs and activities
unless an agency head or authorized designee makes a determination to grant an exception in
accordance with 2 CFR Section 180.1.35. Non-procurement transactions include grants,
cooperative agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees,
subsidies, insurance, payments for specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the period ofthis
debarment. 2 CFR Section 180.170. During the debarment period, you may not have
supervisory responsibility, primary management, substantive control over, or critical influence
on, a grant, contract, or cooperative agreement with any agency of the Executive Branch of the
Federal Government.




                          Telephone (703) 292-8060      FAX (703) 292·9041


                                                                                                          ./
                                                                                                      /
If you have any questions regarding the foregoing, please contact          Assistant General
Counsel, National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
Room 1265, Arlington, Virginia, 22230.




                                                 Sincerely,



                                                 Cora B. Marrett
                                                 Acting Deputy Director
